HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in
Illinois for the Period October 1, 2003, Through September 30, 2005,"
(A-05-07-00019)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Outpatient Drug Expenditures in Illinois for the Period October 1,
2003, Through September 30, 2005," (A-05-07-00019)
July 2, 2008
Complete
Text of Report is available in PDF format (8.95 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For fiscal years 2004 and 2005, Illinois claimed $108,000
in Medicaid reimbursement for drugs that were no longer eligible for
reimbursement.  The Medicaid drug
rebate program generally pays for covered outpatient drugs if their
manufacturers have rebate agreements with Centers for Medicare & Medicaid
Services (CMS) and pay rebates to the States.  Under the drug rebate program,
CMS provides the States with a quarterly Medicaid drug tape, which the States
use to verify coverage of the drugs for which they claim reimbursement.
An additional $3.5 million represented expenditures for drug products that were
not listed on the quarterly drug tapes.  Because the State did not verify
whether these drugs were eligible for coverage, these expenditures may not have
been allowable.  We identified no other errors for the remainder of the $1.9
billion (Federal share) that the State claimed.
We recommended that the State (1) refund $108,000 to the Federal Government
for drug expenditures that were not eligible
for Medicaid coverage, (2) work with CMS to resolve
$3.5 million in payments for drugs
that were not listed on the quarterly drug tapes and that may not have been
eligible for Medicaid coverage, and (3)
strengthen internal controls to ensure that claimed Medicaid drug expenditures
comply with Federal requirements.  The State agreed with the first two
recommendations and disagreed with the third recommendation.